                             Office of the Inspector General

September 29, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Patterns of Reporting Errors and Irregularities by 100 Employers with the Most
Suspended Wage Items (A-03-98-31009)


Attached is a copy of our final report on the subject review. The objective of our review
was to identify patterns of errors and irregularities in wage reporting for those
100 employers who had the most suspended wage items from 1993 through 1996. We
also reviewed the Social Security Administration’s (SSA) controls and edits to detect
patterns of errors and irregularities in wage reporting practices.

In commenting on this report, SSA pointed out that the cooperation, support, and
actions of the Internal Revenue Service (IRS) are necessary to effectively reduce the
number of suspended wage items. As such, we plan to distribute the report to the
Inspector General of IRS. You may wish to provide the report to the Commissioner of
IRS for his comments and suggestions directly.

In the event you wish to comment on any further action taken or contemplated on our
recommendations, please provide them within the next 60 days. If you wish to discuss
the final report, please call me or have your staff contact Daniel R. Devlin, Acting
Assistant Inspector General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



    PATTERNS OF REPORTING
  ERRORS AND IRREGULARITIES
    BY 100 EMPLOYERS WITH
     THE MOST SUSPENDED
          WAGE ITEMS

    September 1999   A-03-98-31009




AUDIT REPORT

                   E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of our review was to identify patterns of errors and irregularities in wage
reporting for those 100 employers who had the most suspended wage items from 1993
through 1996. We also reviewed the Social Security Administration’s (SSA) controls
and edits to detect patterns of errors and irregularities in wage reporting practices.

BACKGROUND

Title II of the Social Security Act requires that SSA maintain records of wages
employers pay to individuals. Employers report their employees’ earnings to SSA
annually on a Form W-2. SSA uses manual and automated edit routines to match
employees’ Social Security numbers (SSN) and names to SSA’s master file to post their
earnings to the Master Earnings File. The Earnings Suspense File (ESF) contains
wage items (W-2) that fail to match SSA’s name and SSN records. From 1937 to 1997,
the ESF accumulated over 212 million wage items and over $265 billion in wages that
could not be posted to the proper earnings records. Since 1990, the ESF has grown by
an average of 5 million items and at least $17 billion annually. A relatively small
number of employers account for a disproportionate share of the suspended items and
dollars. In 1996, for example, about 3,000 problem employers (1/20th of 1 percent of all
employers) with 200 or more suspended wage items accounted for 30 percent of all
suspended wage items and 20 percent of all suspended wage dollars.1

Wages that cannot be associated with an employee’s account can affect the
employee’s retirement benefits. The ESF also affects SSA’s operating costs. SSA
estimates that it costs less than 50 cents to post a correctly submitted wage item to an
individual’s earnings record, but it costs about $300 to correct an item once it is in
suspense due to additional manual research and analysis needed to match the
suspended earnings to the individual.

SSA and Congress have been aware of the ESF problem for some time. A 1996 SSA
task force found poor reporting practices by both employers and employees and
prompted SSA to conduct outreach efforts with employers. Consequently, SSA
directed its regional staff to contact over 7,000 employers with 100 or more suspended
W-2s for Tax Years 1996 and 1997 to discuss reporting errors and steps employers
could take to improve the accuracy of their wage reports.

1
  SSA operationally defined problem employers for Tax Years 1993-1995 as those with 200 or more
suspended wage items a year, then reduced the 1996 threshold to 100 suspended items. For
consistency in analysis, we used the threshold of 200 for each year.


                                                 i
We analyzed SSA’s Suspense Files for 1993 through 1996 (the most recent data
available at the time of our review) to develop a data base of the 100 employers who
had the most suspended wage items for the period. We computed the suspended
wages associated with these employers for 1995 and 1996. We used several
computerized matching routines to identify multiple employees reportedly living at the
same address and working for the same employer and instances of reporting invalid
SSNs. We performed our audit from October 1998 to March 1999 at SSA
Headquarters in Baltimore, Maryland, and the Office of the Inspector General (OIG),
Office of Audit, in Philadelphia, Pennsylvania.

RESULTS OF REVIEW

The 100 employers with the most suspended W-2s from 1993 through 1996
accounted for about 1.2 million suspended wage items, 5.4 percent of the 22 million
suspense items during the period. Further, they accounted for about $1.8 billion in
suspended wages in 1995 and 1996, about 4 percent of the $42.9 billion in suspended
wages for these 2 years. Many of these employers’ suspended wage items exhibited
patterns of reporting errors and irregularities that we believe warrant follow up by SSA.
In summary, we found the following.

•	 Eighty-four employers experienced increases in suspended wage items over the
   4-year period, including 27 employers with increases of 100 percent or more. For
   example, the number of suspended W-2s for a restaurant chain grew from 283 in
   1993 to 3,617 in 1996, a 1,178-percent increase.

•	 Suspense Files for 1996 for all 100 employers exhibited various patterns of errors
   and irregularities involving employees’ reported SSNs.

   •	 Ninety-six employers reported 109,360 unassigned SSNs, representing about
      $298.5 million in suspended wages. Unassigned SSNs are those SSA has not
      issued. For example, a fast food restaurant chain reported over
      6,500 unassigned SSNs.

   •	 Thirty-six employers reported 3,127 of the 109,360 unassigned SSNs as
      “000-00-0000.” For example, an agricultural employer reported 663 SSNs in
      which all 9 digits were “0.”

   •	 Sixty-nine employers reported 16,742 identical W-2s, representing $31.1 million
      in suspended wages, that were used 2 or more times by employees working for
      the same employer. Identical SSNs are numbers reported two or more times for




                                            ii
       different employees. For example, an employer who provided temporary
       services reported the same SSN on 215 W-2s and another SSN on 50 other
       W-2s.

    •	 Eighty-six employers reported 3 or more consecutively numbered SSNs
       involving 4,910 W-2s and $14.4 million in suspended wages. For analysis
       purposes, we defined “consecutive” SSNs as those where the first six digits were
       identical. For example, a booking agency for the entertainment industry
       reported 288 consecutively numbered SSNs.

    •	 Ninety-four employers reported duplicate mailing addresses for 3 or more
       employees, involving 72,770 suspended W-2s (21 percent of the
       340,922 suspended wage items for these employers in 1996). Suspended
       wages involving duplicate addresses totaled about $193.7 million. One
       employer, for example, reported the same address on 344 suspended W-2s.

•	 SSA uses over 20 automated and manual edit routines to attempt to match reported
   names and SSNs to SSA’s master file. SSA also offers employers services to help
   them submit accurate wage reports. However, the internal controls and edits will
   not identify the patterns of reporting irregularities noted in this report, such as SSNs
   or mailing addresses that are reported multiple times.

CONCLUSIONS AND RECOMMENDATIONS

SSA’s edits and follow-up actions generally are designed to find and correct many
errors in reporting earnings but will not detect the patterns of wage reporting errors and
irregularities found in this review. Thus, if SSA is to gain better control over the
Suspense File, it must take a different approach in dealing with employers who submit
wage reports that exhibit the patterns of errors and irregularities we observed.
Recommendations concerning ESF issues are provided in a forthcoming OIG report,
Earnings Suspense File Tactical Plan (A-03-97-31003).

The information presented in this report is based on the 100 employers with the most
suspended wage items from 1993 through 1996. We believe the benefits of our
recommendations would apply to other employers who add to the size and growth of
the ESF. We are providing the details of our methodology and documentation to SSA
for further analysis. To receive the maximum benefit from its current suspense file
reduction efforts, we recommend that SSA:

•	 Develop and implement a corrective action plan for the 100 employers and continue
   its current efforts to contact those employers who are responsible for large numbers
   of suspended wage items.

•   Establish preventive controls to detect wage reporting errors and irregularities.



                                             iii
•	 Identify those employers who continually submit annual wage reports with large
   numbers and/or percentages of unassigned, identical, and/or consecutively
   numbered SSNs.

•	 Run address standardization software as soon as practical after employers submit
   their annual wage reports to identify employers that report the same address for
   many employees.

AGENCY COMMENTS

SSA stated that, overall, the report findings parallel its experience with respect to
employer reporting problems. SSA pointed out, however, that taking the recommended
actions will not necessarily influence an employee to provide his/her employer with the
correct name/SSN or necessarily influence an employer to improve the accuracy of
wage reporting. In addition, SSA believes it is important to recognize that it has no
compliance authority and needs the cooperation, support, and actions of the Internal
Revenue Service (IRS) to effectively reduce the number of suspended wage items.

SSA also provided a limited number of technical comments that we have incorporated
in this final report. The full text of SSA’s comments is included in Appendix B.

OIG RESPONSE

We are pleased that SSA is taking action on our recommendations. We agree that
SSA has no compliance authority in these matters and needs the IRS’ cooperation,
support, and actions to effectively reduce the number of suspended wage items.

We believe SSA should view this report as an opportunity to determine the causes of
reporting errors and irregularities. It would be beneficial to determine whether the
errors were caused by actions of the employee or the employer. It would also be
beneficial to determine whether the errors were mistakes or possible intentional
disregard of the law. We believe it is necessary for SSA to identify those employers
who continually submit wage reports with large numbers and /or percentages of
unassigned, identical, and/or consecutively numbered SSNs. We intend to pursue
these issues in future reviews.




                                          iv
                         TAB L E O F C O N TE N TS


                                                                                                                Page


EXECUTIVE SUMMARY ......................................................................................... i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 4


    SUSPENSE PROFILE OF THE 100 EMPLOYERS........................................... 4


    •    Employers Concentrated in Problem Industries .......................................... 5


    •    Large Increases in Suspended W-2s over 4-Year Period .......................... 5


    PATTERNS OF REPORTING ERRORS AND IRREGULARITIES ................... 8


    •    Problem SSNs.............................................................................................. 8


    •    Same Mailing Addresses Reported for Many Employees .......................... 12


    INADEQUATE CONTROLS TO DETECT PATTERNS OF

    REPORTING ERRORS AND IRREGULARITIES............................................ 15


    •    Controls Implemented ................................................................................ 15


    •    Need for Additional Controls ...................................................................... 17


CONCLUSIONS AND RECOMMENDATIONS..................................................... 18



APPENDICES
APPENDIX A – 100 Employers Responsible for Most Suspended Wage Items

APPENDIX B – Agency Comments

APPENDIX C – Major Contributors to This Report

APPENDIX D – SSA Organizational Chart





                                                             i
                          I N TR O D U C TI O N


OBJECTIVE

The objective of our review was to identify patterns of errors and irregularities in wage
reporting for those 100 employers who had the most suspended wage items from
1993 through 1996. We also reviewed the Social Security Administration’s (SSA)
controls and edits to detect patterns of errors and irregularities in wage reporting
practices.

BACKGROUND

Title II of the Social Security Act requires that SSA maintain records of wages
employers pay to individuals. Employers report their employees’ earnings to SSA
annually on a Form W-2. SSA’s strategic plan, developed as a requirement of the
Government Performance and Results Act of 1993, Public Law 103-62, 107 Stat. 285,
recognizes the importance of SSA’s earnings file as the basis for eligibility and
payment decisions in the Old-Age, Survivors, and Disability Insurance program. SSA’s
strategic plan also acknowledges the critical role employers play in ensuring that SSA’s
earnings records are accurate and the need to slow the Earnings Suspense File’s
(ESF) growth rate.

Technical Information Bulletins and other information SSA provides employers and
employees also convey the importance of reporting earnings to SSA promptly and
accurately. Among other things, these Bulletins emphasize that care in using Social
Security numbers (SSN) helps ensure that earnings are properly credited; employers
should ask to see an employee’s Social Security card, but an employee cannot be
forced to show the card; and employers should correctly record each employee’s SSN.
Wages that cannot be associated with an employee’s account can have a negative
effect on the amount the employee receives in retirement benefits. The Suspense File
also affects SSA’s operating costs. SSA estimates that it costs less than 50 cents to
post a correctly submitted wage item to an individual’s earnings record, but it costs
about $300 to correct an item once it is in the ESF.

Most of the approximately 6.5 million employers report their workers’ earnings
accurately. About 5.72 million employers (88 percent) submit annual wage reports with
no wage item (W-2) errors, and another 585,000 employers (9 percent) submit reports
with 5 or fewer errors. Of the remaining approximately 195,000 employers (3 percent),
about 3,000 submit annual wage reports with 200 or more errors.




                                            1

SSA uses a number of manual and automated edit routines to match employees’
names and SSNs to SSA’s master file (referred to as Numident file) to post their
earnings to the Master Earnings File. If an individual’s name/SSN cannot be matched
to the Numident file and the W-2 information goes into the ESF, SSA performs other
edits to reinstate the individual’s earnings. SSA also takes other steps. For example,
SSA sends letters to every employee (or the employer if there is no address for the
employee) requesting information to resolve the discrepancy. SSA has also directed its
regional employer service liaison officers to contact all employers with 100 or more
suspended wage items for Tax Years 1996 and 1997 and offer help to avoid future
reporting problems. Further, the regional liaison officers regularly conduct seminars for
employers to assist them in submitting their annual wage reports accurately. Despite
these efforts, the ESF continues to grow by about 5 million wage items and at least
$17 billion annually.

SCOPE AND METHODOLOGY

During a current Office of the Inspector General (OIG) audit, Earnings Suspense File
Tactical Plan (A-03-97-31003), to be issued in Fiscal Year 1999, we became aware of
several questionable cases involving the use of invalid SSNs and multiple workers
reporting the same mailing address. For example, personnel at SSA’s Wilkes-Barre
Data Operations Center provided us 51 pieces of ESF mail that were sent to the same
California address and returned to SSA by the resident. We determined that all
51 wage earners with these suspended wages used invalid or other persons’ SSNs,
and all worked for the same agricultural employer. Further analysis showed that,
during a 2-year period, this employer was responsible for over 1,800 suspended W-2s
valued at over $6.4 million. Based on such data, we began this review to
systematically identify similar employers.

To select employers for review, we first obtained ESF data for the period 1993 through
1996. We identified all employers who contributed 200 or more wage items to the ESF
in each of the 4 years. From this data base, we selected for further analysis the
100 employers who had the most suspended wage items over the 4-year period. We
limited our review to the 100 employers with the most suspended wage items to
keep our analytical effort manageable. (See Appendix A for a listing of the
100 employers and complete statistics for each category of reporting error.) We used
several computerized matching routines to identify multiple employees reportedly living
at the same address and working for the same employer and instances of individuals
using invalid SSNs. We performed these steps for 1996 suspense information only. To
the extent possible, we computed the suspended wages associated with these
employers for 1996. We reviewed SSA’s procedures and edits to control employers’
annual wage reports and identify reporting errors.




                                           2

We present several charts throughout this report to illustrate the wage reporting errors
we found. For conciseness, we limited each chart to the 10 employers with the highest
incidence of a particular error—for example, the percentage increase in suspended
W-2s over the 4-year period.

We performed our audit at SSA Headquarters in Baltimore, Maryland, and OIG’s Office
of Audit Field Office in Philadelphia, Pennsylvania, from October 1998 to March 1999.
We conducted the review in accordance with generally accepted government auditing
standards.




                                           3

                  R E S U L TS O F R E V I E W 


SSA receives over 250 million W-2s annually from about 6.5 million employers.
Earnings data for an average of about 5 million of those workers cannot be matched to
SSA’s name and SSN master file and end up in the ESF. As of October 1998, the ESF
contained 212 million wage items worth $265 billion in covered wages. The ESF
continues to grow by an average $17 billion in unmatched wages annually.

In many cases, the unmatched wage data contain errors. For example, SSA has never
issued the SSN “000-00-0000” nor has it issued identical SSNs to many different
people. Yet some employers continue to report W-2s with such impossible SSNs each
year, and the wages go unrecorded. This cycle continues and worsens because SSA
has not implemented controls to identify these patterns of reporting errors. SSA also
has not taken corrective action with these employers to improve W-2 submission
accuracy.

To identify patterns of reporting errors and irregularities, we reviewed the annual wage
report submissions of the 100 employers with the highest number of suspended wage
items (W-2) from 1993 through 1996. We also reviewed SSA’s controls and edits to
detect and resolve patterns of wage reporting irregularities. We discuss the results of
our review below. Specifically, we identify their industries and growth in their
suspended W-2s over the 4-year study period. We also present our analysis of
patterns of wage reporting that SSA could use to identify potential problem employers.
Finally, we describe SSA’s existing wage reporting controls and their limitations in
detecting the reporting errors and irregularities identified in this report.

SUSPENSE PROFILE OF THE 100 EMPLOYERS

The 100 employers contributed about 1.2 million unidentifiable wage items to the ESF
from 1993 through 1996. For 1996 alone, they contributed 340,922 wage items to the
ESF. Considering that about 6.5 million employers submit wage reports annually, and
97 percent of these employers supply reports with few or no errors, the continued
inability of the other 3 percent to submit correct employee information requires
analysis.

During our review, we noted that many of these employers were concentrated in
industries that had historically been major contributors to the ESF. Overall, most of
these 100 employers experienced increases in suspended W-2s from
1993 to 1996.




                                            4

Employers Concentrated in Problem Industries

SSA’s experience has been that employers in industries that traditionally rely on a work
force consisting of lower skilled and/or migrant workers are the major sources of
suspended wages. Table 1 shows, by industry, the 100 employers and their
contribution of unidentifiable wages to the ESF for 1996.

             Table 1: Suspense File by Major Industries (100 Employers)

                                Number of         1996 Suspended           1996 Suspended
         Industry*              Employers              W-2s                    Wages
   Services                         29                  99,994               $232,354,181
   Restaurants                      21                  97,692                356,359,459
   Agriculture                      17                  43,775                 68,572,228
   Hotel/Retail                      7                  28,145                121,248,406
   State/local agency                2                   9,835                 36,846,152
   Unknown                          24                  61,481                147,065,609
   Totals                          100                 340,922               $962,446,035
    *We were able to determine the industry for 76 employers by their names or by contacting
    SSA’s regional employer service liaisons. We did not contact the employers.

Large Increases in Suspended W-2s over 4-Year Period

Of the 100 employers included in this review, 84 experienced increases in the number
of suspended wage items from 1993 to 1996. While the annual number of all
suspended W-2s grew by 29 percent between 1993 and 1996—disturbing in itself—the
annual number of suspended W-2s for the 100 employers grew by 40 percent (see
Figure 1).




                                                  5

           Figure 1: Growth in Number of Suspended W-2s (1993-1996)


        45%
                                                           40%
        40%

        35%

                            29%
        30%

        25%

        20%

        15%

        10%

         5%

         0%
               All Employers with Suspended         Top 100 Employers
                           W-2s

The 84 employers experienced increases totaling about 141,500 suspended wage
items over the 4-year period. This includes 27 employers whose suspended W-2s
more than doubled and 23 other employers with increases of over 60 percent (that is,
about double the rate of growth for all employers with suspended wage items). This
also includes 34 employers with an average increase of 31 percent. The remaining
16 employers decreased their suspended wage items by about 44,500, with 1 employer
responsible for about 55 percent of the total reduction. These 16 employers had a high
number of suspended wage items in 1993. Thus, while they showed improvement,
these 16 employers still added over 36,000 W-2s and $73.2 million to the ESF for 1996
alone.




                                          6

To illustrate this growth, Figure 2 shows data for the 10 employers with the greatest
percentage growth in suspense items over the 4-year period. The employer with the
highest percentage growth of suspended W-2s over the 4-year period (employer
number 65) was a restaurant chain with suspended W-2s increasing from 283 in 1993
to 3,617 in 1996, 1,178 percent.2 This employer had 7,069 of the 43,568 suspended
W-2s reported for the 4-year period. Over half of the suspended items were reported
in 1996.


                    FIGURE 2: 10 Employers with Greatest Suspense Growth




            1,400


                    1,178
            1,200

                            1,016
            1,000
                                    895
                                          855

             800                                  746
                                                         663      658

             600
                                                                        507
                                                                              476

             400                                                                    336



             200



               0
                     65      59     83    78      95      11      77    50    90     99
                                                Employer Number




2
   For consistency in analyzing and presenting data, we assigned an identifying number to each
employer. The numbering sequence is based on the 4-year totals of suspended W-2s for each employer
for the period 1993 through 1996.


                                                  7
PATTERNS OF REPORTING ERRORS AND IRREGULARITIES

During our review of the 100 employers’ annual wage reports, we identified patterns of
reporting errors and irregularities. These patterns fit all 100 employers to varying
degrees and resulted in large numbers of suspended wage items. For example, the
employers reported large numbers of unassigned, identical, and/or consecutive SSNs,
and reported the same address for many workers. SSA tries to contact the individual
employees to resolve suspended wage items; however, this process will not highlight or
correct repeated patterns of employer wage reporting irregularities.

Problem SSNs

SSA makes SSN information available to employers to help them check the validity of
information employees provide. Despite SSA’s effort to provide SSN assistance, about
38 percent of the 1996 suspended wage items for the 100 employers was associated
with problem SSNs (see Table 2). For example, employers reported unassigned SSNs,
identical SSNs, and consecutively numbered SSNs.

                           Table 2: Problem SSNs Reported (1996)


                Problem                      Number of Employers                Number of SSNs
    Unassigned SSNs                                  96                             09,360
    Identical SSNs                                   69                              6,742
    Consecutively Numbered SSNs                      86                              4,910

The 100 employers were responsible for a disproportionate share—over 5 percent—of
the problem SSNs for the 1996 Suspense File. In our view, these types and quantities
of errors warrant further analysis by SSA.

        Unassigned SSNs. SSNs with area numbers (first 3 digits) or group numbers
(second 2 digits) that SSA has not issued are referred to as unassigned or impossible
numbers. Each month, SSA updates a master list containing the latest issued area and
group numbers. SSA makes this information available so employers can verify the
validity of SSNs employees provide. SSA publishes the master SSN listing on its
World Wide Web site and its electronic bulletin board.3 Examples of unassigned
numbers we observed included SSNs in areas 729 to 999 and SSNs with all zeros in
either the area, group, or serial numbers (last 4 digits).4



3
  Before 1994, the listing was available to employers by mail on request.
4
  The Internal Revenue Service provides taxpayer identification numbers in the 900 series, which
appear similar to SSNs, to certain aliens who do not have SSNs but are required to file tax returns.
These numbers are supposed to be used for tax reporting purposes only.


                                                    8

We compared the SSNs the 100 employers reported to SSA’s January 1999 master list
of assigned area and group numbers. In 1996, 96 employers reported 109,360 SSNs,
representing about $298.5 million in suspended wages that SSA had never assigned.
Included in these unassigned SSNs, we observed the following.

•	 Thirty-six employers reported 3,127 SSNs as “000-00-0000.” For example, an
   agricultural employer (number 10) reported 663 SSNs as “000-00-000.” Another
   employer (number 84) reported 552 SSNs the same way. 5

•	 Seventy-nine employers reported unassigned SSNs for at least 25 percent of their
   employees, including 27 employers who reported unassigned SSNs for 40 percent
   or more of their employees.

For example, employer number 25 submitted 1,652 unassigned SSNs (about
41 percent of 4,039 suspended items). In our view, SSA should consider unassigned
SSNs a reporting problem that should be investigated and resolved quickly.

To illustrate the situation, Figure 3 shows data for the 10 employers that reported the
most unassigned SSNs in 1996, 34,242 suspended W-2s.




5
  According to SSA, the Internal Revenue Service directs employers who do not have SSNs for
employees to report using 000-00-0000. We were unable to determine whether this condition existed for
the years we examined.


                                                  9

      7 ,0 0 0
                 6 ,5 6 6


      6 ,0 0 0


                            5 ,1 2 5
      5 ,0 0 0



      4 ,0 0 0                         3 ,6 7 5
                                                  3 ,3 4 5
                                                               3 ,1 5 5
                                                                             3 ,0 3 5
      3 ,0 0 0                                                                            2 ,7 0 0
                                                                                                     2 ,4 3 7
                                                                                                                2 ,1 1 0   2 ,0 9 4
      2 ,0 0 0



      1 ,0 0 0



            0
                    2          3          5          4            8            10            9          7         23         13
                                                             E m p lo y e r N u m b e r



     Figure 3: Number of Unassigned SSNs Reported by 10 Employers (1996)

       Identical SSNs. In 1996, 69 of the 100 employers submitted 16,742 W-2s
containing identical SSNs. These W-2s represented $31.1 million in suspended
wages. Identical SSNs are numbers reported two or more times for different
employees. We acknowledge that an employer might issue more than one W-2 to an
employee in a given year. However, we observed numerous instances where several
different employees reported the same SSN. For example, a 1996 wage report
submitted by a State human services agency (employer number 1) contained
2,815 suspended W-2s that had identical SSNs. This included 1 SSN used by
27 employees and another used by 18 employees. In another case, a temporary
services agency (employer number 83) reported the same SSN 215 times and another
SSN 50 times. Situations like these contradict SSA’s policy of issuing a unique SSN to
each person, and these employers should be analyzed further.

To illustrate identical SSN reporting, Figure 4 shows the 10 employers reporting the
most identical SSNs in 1996, resulting in 13,091 suspended W-2s.




                                                                      10

           3,000
                   2,815
                           2,671


           2,500
                                   2,235


           2,000




           1,500
                                           1,345
                                                   1,268 1,225



           1,000




            500                                                  424    421   380
                                                                                    307



              0
                     1      90       6      50      92    33       83   55    21    11
                                                 Employer Number

      Figure 4: Number of Identical SSNs Reported by 10 Employers (1996)

        Consecutively Numbered SSNs. Although the volume of consecutively
numbered SSNs was not as great as unassigned and identical SSN submissions, its
occurrence was widespread and significant enough among the 100 employers for SSA
to pay particular attention when employer wage reports contain such SSNs. For
analysis purposes, we defined consecutive SSNs as those where the first six digits
were identical. Because SSA assigns SSNs centrally in the order in which applications
are received using a computer program that switches between open areas and groups,
it is almost impossible for several individuals working for a given employer to have
legitimate consecutively numbered SSNs. When employers report consecutively
numbered SSNs that do not match SSA’s master file of names and SSNs, the reported
wages go into the ESF.

We analyzed suspended 1996 W-2s from the 100 employers to identify all instances
where the first 6 digits of an SSN were exactly alike. Eight-six employers reported
4,910 suspended W-2s representing about $14.4 million in wages where there were
3 or more consecutively numbered SSNs. One fast food restaurant chain (employer


                                                         11

number 2) reported 677 consecutively numbered SSNs, in small clusters of 3 to
8 numbers at a time.6 A talent-booking agency for the entertainment industry (employer
number 21) reported 288 such SSNs using varied sequences. Table 3 shows the
sequences used by employer number 21 and the number of times each sequence was
used on 1996 W-2s. All 288 reported SSNs were either invalid or belonged to
individuals who are deceased.

          Table 3: Illustration of Consecutive SSNs – Employer Number 21


                           First 6 Digits               Number of
                              of SSN                  Suspended W-2s
                       001-01-1xxx                            59
                       002-02-2xxx                          122
                       004-04-4xxx                            16
                       005-05-3xxx                            40
                       005-05-5xxx                             4
                       777-77-2xxx                            10
                       888-88-0xxx                             5
                       999-00-0xxx                             4
                       Other                                  28
                       Total                                288

The identification of consecutively numbered SSNs in an employer’s annual wage
report may indicate that employers are supplying SSNs to their workers rather than
attempting to obtain a legitimate SSN. In addition to being consecutive, many of the
W-2s identified above were impossible. For example, SSA has never issued SSNs in
areas “777,” “888,” and “999” as well as in group “00.” If SSA were to use a computer
routine to highlight such reporting errors when employers submit their annual wage
reports, it could identify these irregularities and further analyze the wage report timely.

Same Mailing Addresses Reported for Many Employees

In 1996, 72,770 suspended W-2s totaling about $193.7 million showed the same
address for 3 or more employees working for the same employers. In some cases, the
same address was reported dozens of times for different employees. The existence of



6
 For example, the employer reported SSNs 654-09-6513, -6541, -6543, and -6549. All four reported
SSNs are invalid.


                                                12

multiple suspended wage items for different people using the same address and
working for the same employer is a strong indicator of wage reporting irregularities on
the part of employers and/or employees.

SSA had employee address information available for 94 of the 100 employers we
reviewed, representing 312,751 suspended W-2s in 1996.7 Using the Postal Service’s
“ZIP+4” computer program, which standardizes addresses, we identified
72,770 suspense items where 3 or more W-2s had the same mailing address and the
employees worked for the same employer. We acknowledge that, in some of these
cases, there may be a logical explanation, such as family members using the same
address. We also found a small number of cases (364 suspended W-2s from
7 employers, including 301 from 1 employer) where the employees used the employers’
addresses as their home address. However, when many individuals working for the
same employer supposedly live at the same address and their earnings end up in the
ESF, SSA must conclude there is a reporting problem.

For example, in 1 case, 2,547 of 2,725 suspended W-2s for an agriculture employer
involved multiple employees reportedly living at the same addresses. This included
26 instances where 11 or more W-2s had the same mailing addresses; 1 of these
addresses was used for 344 employees. In our view, these are reporting errors that
could be indicative of a larger problem.

To illustrate reporting identical addresses, Figure 5 presents data for the 10 employers
that reported the highest percentages of suspended W-2s with the same mailing
addresses for their employees. Table 4 shows the 10 employers that reported the most
suspended W-2s with identical addresses, including the number of times unique
addresses were used and the most times that 1 address was used.




7
  Address data were not available for six employers, so we were unable to perform the matching
operation for them.


                                                 13

Figure 5: 10 Employers Reporting Highest Percentages of Identical Mailing
Addresses (1996)




        100

               93

         90
        86


         80

                         74

                              69
         70
                        67

                                              60     59
         60

                                                          55   54
                                                                    50
         50




         40




         30




         20




         10




          0

               90   37   89   48    55        97     50   56   68   49

                                   Employer Number




                                            14

       Table 4: 10 Employers Reporting The Most W-2s with Identical
                       Employee Addresses (1996)

             Suspended                                                    Most Times
              W-2s with    Number of Times a Unique Address Was Used         One
  Employer    Identical                                                    Address
   Number    Addresses    2 Times    3-5 Times      6-10      11+ Times    Was Used
                                                   Times
        2        6,336       1,380        723          95           24          32
        7        4,955       1,368        450          56           13          48
        3        4,310       1,051        521          50            5          16
       15        3,842         999        400          54            5          13
        4        3,763         827        404          56           13          86
       30        3,487       1,056        274          47            6          26
       10        3,137         460        345          74           28          32
       50        2,690         317        227          91           34          51
       90        2,635          44         13          10           26         344
        8        2,428         764        247          10            0          10

INADEQUATE CONTROLS TO DETECT PATTERNS OF REPORTING
ERRORS AND IRREGULARITIES

SSA uses several procedures to control employers’ annual wage reports and offers
employers services to help them submit accurate wage reports. However, none of
these procedures or services adequately addressed the patterns of reporting
inaccuracies we identified.

Controls Implemented

SSA requires that employers with 250 or more employees report their employees’
annual wages on tape, diskette, or cartridge. SSA uses over 20 automated and manual
edit routines to attempt to match reported names and SSNs to SSA’s master file. For
Tax Years 1995 and prior, SSA would accept these reports if as few as 10 percent of
the names and SSNs matched SSA’s master records. SSA increased the acceptance
threshold to 30 percent for Tax Year 1996 and 50 percent for Tax Year 1997 (with a
maximum of 5,000 errors allowed). SSA returns to the employer for correction and
resubmission any annual wage report not meeting the threshold.

Concurrent with increasing the acceptance threshold for Tax Year 1996, SSA advised
employers it would accept reports not meeting the threshold if the employer notified
SSA it could not make the needed corrections. SSA procedures call for “force
processing” the wage report in such cases and notifying the employer it would do so
one time only. Force processing these wage reports results in unmatched W-2s going
directly into the ESF.


                                         15

To help employers, SSA makes SSN issuance information available monthly on SSA’s
World Wide Web site and electronic bulletin board. SSA also encourages employers,
particularly those employers who have significant numbers of wage items that fail to
match SSA’s name and SSN records, to use its Enumeration Verification System. Both
services are designed to help employers check the validity of SSNs provided by their
employees. The use of these services is voluntary.

For wage items whose names and SSNs do not match SSA’s master records, SSA
annually sends correspondence to individuals (or employers if SSA does not have an
address for the employee) asking for correct information. SSA mails this
correspondence in batches over a period of several months. As a result, about
8 percent of the items are transferred from the ESF to individuals’ earnings records.
However, if correspondence SSA sends to an employee’s address is returned as
undeliverable, SSA does not attempt to contact the employer as an alternative.

In 1996 and 1997, SSA identified over 7,000 employers with more than 100 suspended
W-2s. SSA directed its regional employer service liaisons to contact these employers
to discuss reporting errors and steps employers could take to improve the accuracy of
their wage reports. However, these outreach efforts did not yield many reinstatements
of suspended W-2s. According to SSA staff, this was due to several factors.

•	 Some employers believe that many of the workers provided incorrect names or
   SSNs because they did not want to be identified.

•	 Employers stated they were unable to provide corrected data because the
   employees no longer worked there and the employers did not have any other SSNs.

•	 Employers were unable to verify SSNs for employees until after they were hired
   because of privacy restrictions.

•	 The Internal Revenue Service was reluctant to enforce existing penalty provisions
   on employers for submitting wage reports with incorrect names and/or SSNs.

The overall consensus of the staff who contacted the employers was that SSA should
continue to pursue sanctions with the Internal Revenue Service and revisit some of the
privacy/disclosure issues that preclude SSA from working more closely with the
Immigration and Naturalization Service.8




8
  In our report on SSA’s Earnings Suspense File Tactical Plan (A-03-97-31003), we recommend SSA
pursue sanctions with the Internal Revenue Service and address privacy considerations with the
Immigration and Naturalization Service.


                                                16

Need for Additional Controls

We commend SSA for its ongoing efforts to provide employers with information that can
improve the accuracy of wage reporting. However, these efforts will not detect or
prevent the patterns of reporting errors and irregularities discussed in this report.
Additional controls are needed to identify and deal with problem employers.

For example, existing processing controls would have identified only 10 of
91 employers reviewed whose W-2s failed to meet the 30-percent acceptance
threshold for 1996 (and thus had their wage reports returned).9 SSA force processed
the 1996 wage reports for 10 of the employers. In 1997, SSA again force processed
the wage reports for these same 10 employers. Thus, SSA did not enforce its one-time
control procedure.10 Therefore, many employers who continually submit erroneous
wage reports have no incentive to submit accurate wage reports and largely ignore
SSA’s attempts to improve the process.

In our view, SSA needs to do more to specifically target such employers. Contacting all
7,000 employers who submit more than 100 suspended W-2s treats all of them
essentially the same rather than focusing on those who represent the most severe
examples of reporting errors and irregularities. For example, 1,660 suspended
1996 W-2s for a national department store chain (employer number 87) represented
0.4 percent of its workforce, while 1,396 suspended items for a farm labor services
employer (number 86) represented over 70 percent of its employees. SSA needs to
deal with such employers first to resolve their wage reporting irregularities.




9
   To calculate the percentage of an employer’s W-2s that failed SSA’s edit checks, it is necessary to
know the total number of W-2s submitted. We were able to obtain this information for 91 of the
100 employers in our review.
10
    We are reviewing SSA’s procedures and controls over force processing magnetic media wage reports
in another audit.


                                                  17

 CONCLUSIONS AND RECOMMENDATIONS


SSA’s edit and follow-up actions generally are designed to find and correct many errors
in reporting earnings, but they will not detect the patterns of wage reporting errors and
irregularities found in this review. Thus, if SSA is to gain better control over the ESF,
SSA must take a different approach to dealing with employers who submit wage reports
that exhibit the patterns of errors and irregularities we observed. Recommendations
concerning ESF issues are provided in a forthcoming OIG report, Earnings Suspense
File Tactical Plan (A-03-97-31003).

The information presented in this report is based on the 100 employers with the most
suspended wage items over a 4-year period. We believe the benefits of our
recommendations would apply to other employers who add to the size and growth of
the ESF. We are providing the details of our methodology and documentation to SSA
for further analysis. To receive the maximum benefit from its current suspense file
reduction efforts, we recommend that SSA:

1. 	 Develop and implement a corrective action plan for the 100 employers and continue
     its current efforts to contact those employers who are responsible for large numbers
     of suspended wage items.

2. Establish preventive controls to detect wage reporting errors and irregularities.

3. 	 Identify those employers who continually submit annual wage reports with large
     numbers and/or percentages of unassigned, identical, and/or consecutively
     numbered SSNs.

4. 	 Run address standardization software as soon as practical after employers submit
     their annual wage reports to identify employers that report the same address for
     many employees.

AGENCY COMMENTS

SSA stated that, overall, the report findings parallel its experience with respect to
employer reporting problems. SSA believes the recommendations in the report may be
helpful in reducing the ESF’s size and growth. However, taking the recommended
actions to implement controls, identify problem employer patterns, etc., will not
necessarily influence an employee to provide his/her employer with the correct
name/SSN or necessarily influence an employer to improve the accuracy of
submission.




                                           18

SSA stated that it previously contacted employers identified in the report of name/SSN
reporting issues with their form W-2 submittals. However, problems have persisted.
Currently, the Internal Revenue Service (IRS) does not penalize employers for W-2
reporting errors. It is important to recognize that SSA has no compliance authority in
these matters. Since IRS’ cooperation, support, and actions are necessary to
effectively reduce the number of suspended wage items, the main thrust of SSA’s key
initiative in this area is dependent on IRS’ efforts

SSA also provided a limited number of technical comments that have been
incorporated in this final report. The full text of SSA’s comments is included in
Appendix B.

OIG RESPONSE

We are pleased that SSA is taking action on our recommendations. SSA stated that it
plans to continue outreach efforts to contact and educate employers who submit 100 or
more suspense items. In 1997, SSA contacted over 7,000 employers. SSA pointed
out, however, that taking the recommended actions will not necessarily influence an
employee to provide his/her employer with the correct name/SSN or necessarily
influence an employer to improve the accuracy of wage reporting. We agree that SSA
has no compliance authority and needs the cooperation, support, and actions of the
IRS.

We believe SSA should view this report as an opportunity to determine the causes of
reporting errors and irregularities. It would be beneficial to determine whether the
errors were caused by actions of the employee or the employer. It would also be
beneficial to determine whether the errors were mistakes or possible intentional
disregard of the law. We believe it is necessary for SSA to identify those employers
who continually submit wage reports with large numbers and /or percentages of
unassigned, identical, and/or consecutively numbered SSNs. We intend to pursue
these issues in future reviews.




                                            19

APPENDICES

                   APPENDIX B



AGENCY COMMENTS

                                                                            APPENDIX C



 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

   Gary A. Kramer, Director, Program Audits (East)

   Thomas Hubbs, Deputy Director

   Louis R. Faiola, Senior Auditor

   Richard Devers, Senior Auditor

   Frank Cassidy, Auditor

   Walt Mingo, Auditor

   Patrick J. Kennedy, Computer Technical Assistance Team



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-03-98-31009.
                        APPENDIX D



SSA ORGANIZATIONAL CHART

